Office of
INSPECTOR GENERAL

 Audit Report




 Evaluation of the Commission's Role
 In Preparing Recurring Reports


 Report No. IG-01-93




                                       March 1993
                                        Date Issued
       INSPECfOR GENERAL




       UNITED STATES INTERNATIONAL TRADE COMMISSION

                               WASHINGTON, D.C. 20436


March 15, 1993



                           EVALUAtION Of COlGUSSIONt S ROLl
                           1M PUPnIMG UCUIUUMG I.IPOlttS


The Office of Inspector General has completed a review evaluating the
Commission's role in preparing recurring reports. The objectives of this review,
which was in the Fiscal Year (FY) 1992 Audit Work Plan, were to evaluate the
Commission's role in order to identify ways to improve the process or products
and to determine whether steps have been or should be taken to revalidate the
continued need for recurring reports.

We identified 14 topics for which the Commission was preparing reports on a
recurring basis in FY 1992. The Office of Industries (ID) is responsible for
9 of the topics and the Office of Economics (EC) is responsible for 5 topics.
The studies were initiated in response to statutory mandates (4), requests from
Congress (6), or were self-initiated (4). Reports were originated as long ago
as 1917, but most (9) were initiated in the 1980s. The reports are prepared on
a monthly, quarterly, semi-annual or annual basis. Most of the studies (9) were
conducted under the authority given to the Commission in section 332 of the
Tariff Act of 1930. Note: In response to the draft report, the Director of
Operations identified two additional reports issued on a recurring basis. We
did not amend the statistics throughout the audit report because the findings
and recommendations would not have been affected.

Since 1987, 11 recurring reports have been deleted or the scopes or frequency
reduced. We do not think that comparable reductions will occur in the future
because most of the reports terminated had sunset dates and only two of the
recurring report studies currently being performed have sunset dates.        Even
though only a small percentage of Commission resources are now spent on preparing
recurring reports, we believe that it is important to develop a system to
systematically address requests for and validation of these reports so that the
Commission can try to prevent a situation where this workload affects
accomplishment of other duties. We believe that procedures addressing the entire
life cycle of recurring reports need to be established that would influence the
method in which requests were made, the inclusion of sunset dates for termination
or review, and consideration of more information in deciding whether or not to
continue reports.
We found that the administrative action processes for recurring reports provided
varying treatment in classifying recurring reports as section 332 studies and
in initiating the studies and approving the reports for issuance. We believe
that all recurring reports distributed outside of the Commission should be
classified as 332 studies.     Furthermore, the process could be improved by
revising the Commission policies on initiating studies and/or issuing reports.

We found that multiple program offices maintained mailing lists either instead
of or in addition to the mailing list maintained by the Office of the Secretary.
We believe that this is inefficient in terms of maintenance, consistent
distribution of reports, preventing duplication, and validation efforts. We also
found that a few program offices packaged the reports for mailing which we do
not believe is an appropriate function for those offices. The multiplicity in
distribution functions is due at least in part to the absence of a Commission
policy on a centralized mailing list and the procedures for mailing reports
and/or publications.

We believe that one way to achieve a cost reduction goal and still provide
reports to the public would be to increase the Commission's use of the Government
Printing Office (GPO) to sell recurring reports. Currently, only the Harmonized
Tariff Schedule is sold by GPO. The primary objections that we heard to using
GPO were problems experienced in the past with printing quality and timeliness.
However, the Commission could print the reports in order to provide copies to
Congress, the Executive Branch, and other agencies and then either give GPO
copies to distribute or allow GPO to make a second printing. If the Commission
used GPO, the mailing and associated costs for recurring reports could be
significantly reduced.

Recommendations to address the above findings are made to the Director of
Operations on pages 5, 8, 13, and 17 of the report. Even though many of the
recommendations require coordination with other Offices, we have addressed all
recommendations to the Director of Operations because he has overall
responsibility for the conduct of the recurring reports.      Furthermore, the
Director must initiate policy and procedural changes affecting the recurring
reports before other offices can take action making him the most appropriate
action officer.

The Director of Operations agreed with the findings and recommendations.      In
addition to agreeing to establish policies as recommended, the response usually
included language on the position to be taken by the Office of Operations. Even
though we do not fully agree with all of the proposed policies, I would like to
acknowledge this as a positive step by the Director of Operations because it
facilitates the development of policies. My comments on the proposed policies
are included in the Commission Comments sections of the report for consideration
in drafting or revising applicable directives. A summary of the Director's
comments on the findings and our responses are presented on pages 5, 8, 14, and
17 of the report. The Director's comments are presented in their entirety as
an appendix to the report.

                                      Vtbvd !lJi;:/~AA-
                                    ~ane  E. A1tenhof~~~~·
                                     Inspector General
                                 TABLE OF CONTENTS


INTRODUCTION AND SCOPE ................................................          1
BACKGROUND ............................................................          2

FINDINGS AND RECOMMENDATIONS ..........................................          3
REVALIDATING NEED FOR RECURRING REPORTS ...............................          3
      Recommendations     ·                                           .          5
      Commission Comments ·                                           .          5

PROCEDURAL DIFFERENCES   ..............................................          6

      332 Classification                                                         6

      Review Process      ................................................       7

      Recommendations                                                            8

      Commission Comments                                                        8

DISTRIBUTION ....•..••                                                           9

      Mailing Lists                                                              9

      Designating Report Recipients                                             11
      Duplication                                                               12

      Validation                                                                12
      Packaging    .......................................................      13
      Recommendations                                                           13
      Commission Comments                                                       14
USE OF THE GOVERNMENT PRINTING OFFICE                                           14
      Recommendations        ·                                          .       17
      Commission Comments    ·                                              .   17
ATTACHMENTS
      1.      List of Recurring Report Topics
      2.      Summary of Recurring Reports
      3.      Comparison of the Review Process
      4.      Comparison of the Mailing Process
      5.      Reductions in Recurring Reports Since 1987
      6.      Form To Be Placed on Mailing List
      7.      Excerpt:   Government Periodicals and Subscription Services

APPENDIX -    Memorandum from the Director of Operations, dated February 22, 1993,
              on Draft Report
                            INtRODUctION AND SCOPI



The Office of Inspector General has completed a review evaluating the
Commission's role in preparing recurring reports. The objectives of this review,
which was in the Fiscal Year (FY) 1992 Audit Work Plan, were to evaluate the
Commission's role in order to identify ways to improve the process or products
and to determine whether steps have been or should be taken to revalidate the
continued need for recurring reports.

Our review was conducted in September through November 1992. The fieldwork was
performed at the Commission offices in Washington, D.C. We began by compiling
a list of topics for which recurring reports were required in FY 1992.      We
identified 14 topics for reports that were issued on a recurring basis (see
Attachment 1 for a list of topics, short titles, and acronyms used throughout
this report).

The Office of Industries (ID) is responsible for 9 of the topics and the Office
of Economics (EC) is responsible for 5 topics. We interviewed staff in these
offices who were responsible for conducting the studies and preparing the
reports. We obtained information on the authority for conducting the studies,
the content of the reports, practices for maintaining the mailing list and
distributing the report, and time recording. Our review included examination
of final reports, administrative action documents, communications with
congressional committees and reports from the Activity Reporting System.

We also interviewed other Commission offices that have responsibilities related
to the preparation of recurring reports. We discussed the role of the Director
of Congressional Liaison (CL) in receiving requests to conduct studies and
periodically revalidating the continued need for the reports.        The Acting
Director of Public Affairs (PA) described the policy and procedures for issuing
announcements and press releases.      The Acting Secretary     was interviewed
concerning the Commission's mailing lists, assignment of publication numbers,
and printing requests. In the Office of Management Services (OMS), we discussed
mailing costs with staff in the Operations Branch, Administrative Services
Division and printing and mail preparation procedures with staff in the Printing
Branch, Publishing Division.

We met with the Documents Marketing staff from the Government Printing Office
(GPO) to discuss the possibility of using their system to sell the recurring
reports. GPO representatives described their policy for accepting documents for
distribution and their system for advertising, taking orders, mailing and pricing
documents.

We reviewed the Federal Managers' Financial Integrity Act report for the
recurring services and reports assessable unit for FYs 1991 and 1992.        No
weaknesses relevant to the preparation of recurring reports were identified.

This review was performed in accordance with applicable generally accepted
government auditing standards. Accordingly, the review included an examination
of internal controls and other auditing procedures that were considered necessary
under the circumstances.

                                        1
We identified 14 topics for which the Commission was preparing reports on a
periodic basis in FY 1992. These studies were initiated in response to statutory
mandates (4), congressional requests from the Senate Finance Committee (SFC)
and/or the House Ways and Means Committee (HW&M) (6), or were self-initiated (4).
Reports were originated as long ago as 1917, but most (9) were initiated in the
1980s. The reports were prepared on a monthly, quarterly, semi-annual or annual
basis. Most of the studies (9) were conducted under the mandate given to the
Commission under section 332(g) of the Tariff Act of 1930. (See Attachment 2
for a summary of the reports.)

The direct cost to prepare the recurring reports in FY 1992 was approximately
$1.56 million. According to the Activity Reporting System, 67,150 hours were
expended on recurring reports in FY 1992 with an estimated cost of $1.4 million.
Using the cost estimated by OMS as $1.64 per copy to print one report which they
considered to be typical and approximately 37,634 copies of recurring reports
printed in FY 1992, we calculated a rough estimate of $61,720 for printing costs.
We estimated the postage for mailing recurring reports in FY 1992 as $58,000
excluding packaging materials and time. Travel, which was only required on two
studies, was reported at $24,159.

There are a multitude of variations on how the studies are initiated within the
Commission and the reports issued and distributed. A general description of the
process is as follows:

      Except for two studies which were self-initiated, the studies for recurring
      reports were initiated by action jacket either when the study was initiated
      on a recurring basis (8 - such as quarterly statistical reports) or at the
      beginning of each cycle (4 - all annual studies of an analytical nature).

      Most of the reports (10) were processed through senior review and approved
      by the Commission via an action jacket. Reports of a statistical (2) or
      opinion (2) nature were issued after a review limited to the lead office.

      Printing requests for nine reports were initiated by the program office
      and sent to the Secretary who assigned the publication number and completed
      the request for mailing. For four reports, the request went directly from
      the program office to the Printing Branch. One report did not require a
      print request.

      For most reports, the Printing Branch printed and assembled the
      publication, printed the mailing labels and packaged the reports for
      mailing.   For a few reports, the program office assembled the report,
      printed mailing labels, and/or packaged reports for mailing.

Variations in the above process that we considered significant are discussed in
the body of this report. Summaries comparing the review and mailing processes
are presented in Attachments 3 and 4.




                                        2
As a result of this review, we identified several areas that we think need to
be improved in order to be more effective. We found that the Commission had
not formally established procedures to regularly revalidate the continued need
for recurring reports; the reports varied in how they were classified as section
332 studies, initiated, and/or approved for issuance; and multiple program
offices maintained mailing lists either instead of or in addition to the mailing
list maintained by the Office of the Secretary and a few packaged the reports
for mailing. In addition, the Commission currently prints and distributes all
recurring reports and we believe that GPO should be used for these functions to
the extent possible in order to reduce mailing and associated costs.




We found that the Commission has not formally established procedures for
regularly revalidating the continued need for recurring reports.         Sporadic
efforts were made to revalidate and consolidate reports which resulted in several
changes in frequency and format of the reports since 1987. We believe that
established procedures addressing the entire life cycle of recurring reports
would provide a better validation.

In a report issued in 1987 (Observations on the Operations of the International
Trade Commission, February 1987), the General Accounting Office (GAO) observed
that the Commission issues a number of recurring monthly, quarterly and yearly
reports but had not established procedures for periodically revalidating the
continued need for them. The Chairman responded by stating that the legislative
liaison had begun working with the Commission staff in an effort to identify
instances where consolidation or less frequent reporting might be appropriate.

Since 1987, 11 recurring reports have been deleted or the scopes or frequency
reduced, as shown in Attachment 5. Six of the seven reports that were terminated
had sunset dates in the legislation or request. In two cases, a congressional
request was revoked or changed.     The Commission attempted to eliminate two
reports (SOC & Nonrubber Footwear), but were unable to obtain concurrence from
the committees that had made the requests. The Commission made changes to three
self-initiated studies.

The efforts to revalidate the recurring reports have been done on an ad hoc
basis by the Directors of Industries, Economics and Congressional Liaison. We
believe that the adoption of several policies and procedures would contribute
to the ability of the Commission to manage the recurring reports workload.

      Influence potential  legislation.    Four of the recurring reports are
      required by statute.    Three of the requirements were enacted fairly
      recently: East-West Trade in 1974, CBERA in 1983, and Ethyl Alcohol in
      1989. We did not find specific comments submitted by the Commission on
      the legislative proposals, but staff said that if comments were submitted,



                                        3
they usually address the content or timing of the proposed request. The
staff do not try to influence the legislation to delete the request or to
include a sunset date.

A major disadvantage of statutory requirements is the inability to adapt
easily to changes in the trade arena. For example, the Trade Act of 1974
required that the Commission prepare a quarterly report of trade between
the United States and the nonmarket economy countries, the East-West Trade
report. Since 1984, the composition of the nonmarket economy countries
has changed significantly.    The Commission has responded by including
countries in the report that were formerly nonmarket economies, on the
basis that this is more useful information.

The Commission attempted to have the legislation amended in FY 1992. The
Office of General Counsel drafted proposed legislation to amend section
410 of the Trade Act of 1974, to require an annual report on nonmarket and
former nonmarket economies, which was submitted to appropriate committees
for consideration (bills with different language to amend the law were
introduced but not passed). We believe that amending the Act as proposed
would solve the immediate problem, but is not the best long-term strategy
as future changes in world economies could again make the requirement
obsolete.

We believe the Commission should try to influence proposed legislation
that contains requirements for studies to delete these requirements. The
Commission could increase receptivity to letter requests rather than
statutory mandates for studies by making the sponsors of bills aware that
the Commission treats letter requests as though they were statutory
requirements. The Commission could further emphasize the advantages of
a request, primarily that changes can be much more easily accomplished
which can benefit the sponsor as much as the Commission in making future
adjustments to the content or timing of the report in response to current
events.

Incorporate sunset dates.   Most of the reductions in recurring reports
since 1987 occurred because sunset dates were included in the legislation
or request. Currently, none of the four statutory reports and only two
of the congressionally requested reports have sunset dates (one established
by the Commission). According to Commission officials, comments on draft
legislation or request letters usually address the content of the report
being requested but not the inclusion of sunset dates. Unless the intent
is to create an ongoing function, we believe the Commission should attempt
to have each law or letter request include language that provides for a
sunset date. This could be a specific date, a reporting period, completion
of an agreement, or even the words "as necessary".

Expand information given to congressional staff. The Commission discussed
changes to recurring reports, even those self-initiated, with congressional
staff. We concur that this is an appropriate and necessary step. However,
we believe those contacts should present more information for the committee
staff in a manner that enhances their ability to provide guidance and make
decisions.



                                  4
      For example, on March 24, 1992, Commission staff met with staff from the
      House Ways and Means and Senate Finance Committees to discuss the necessity
      for and frequency of certain reports. The discussion covered 12 reports,
      mostly in general terms.

      We believe the contacts with committee staff would be more meaningful if
      fewer reports were addressed at a time, and detailed cost information was
      provided as well as the Commission's suggestions for changes.     In this
      manner, the committee staff could better evaluate whether the request
      should be continued and if any changes are needed. Unless the Committee
      staff wanted more frequent information, the contacts could coincide with
      the sunset date incorporated into every request or a reasonable period of
      time such as every three years.

The past Director of Congressional Liaison said that Congress is very much aware
of the need to limit recurring reports as is evidenced by the lack of requests
the last two years.    She agreed that i t would be appropriate to raise the
question of deleting statutory requirements, although it may not always be
successful as these provisions are usually bargaining chips used in obtaining
support for the entire bill and nonstatutory requests would not be viewed as
satisfactory. The inclusion of sunset dates in both legislation and requests
would be more readily accepted. She did not think the committee staff would be
interested in excessively detailed information but have expressed interest in
printing costs and mailing lists.


Recommendations

We recommend that the Director of Operations:

      1.    Coordinate with the Director of Congressional Liaison to establish
            procedures to review and comment on proposed legislation and provide
            input into proposed letter requests for studies. Comments should
            attempt to influence Congress to request studies in letter requests
            rather than mandate studies by law and to incorporate sunset dates
            in all mandated and requested studies.

      2.    Establish a schedule to communicate with committee staff, either in
            letters or meetings, on recurring reports. Develop policies on what
            information should be provided and how many reports should be
            discussed simultaneously.


Commission Comments

The Director of Operations agreed with both recommendations. The past Director
of Congressional Liaison agreed to examine all proposed legislation to identify
mandated studies and recommend that these studies be requested instead by letter
and include sunset dates. The Director of Operations will instruct his staff
to review all proposed letter requests for studies and to recommend incorporation




                                        5
of sunset dates in the requests. The Director also agreed to establish an annual
review of recurring reports that would provide information to and solicit
opinions from appropriate sources, including the congressional committees and
Commissioners.




We found varying treatment in classifying recurring reports as section 332
studies and in initiating the studies and approving the reports for issuance.
We believe that all recurring reports distributed outside of the Commission
should be classified as 332 studies. Furthermore, the process could be improved
by revising   the Commission policies    on initiating studies   and approving
reports.


332 Classification

332 studies can be initiated in response to statutory mandates, requests received
from the President, the House Committee on Ways and Means, and the Senate Finance
Committee, or upon the Commission's own initiative. Whenever a congressional
request is received, a 332 study is initiated. For mandated and self-initiated
studies, the program office (ID or EC) recommends whether the Commission should
initiate a study. Once the initiation of a study has been approved, the program
office contacts the Docket Section for the next available 332 number.

Nine of the recurring report topics were conducted as section 332 studies. We
found that 332 studies were initiated for all congressional and Presidential
requests but the decisions for mandated and self-initiated studies varied as
discussed below:

      Of the four reports mandated by law, two are 332 studies (Ethyl Alcohol
      and CBERA) and two are not (OTAP and East-West Trade). According to EC
      officials, a 332 study was not initiated for OTAP or the East-West Trade
      report because these studies are required by law and there is no special
      request to do the report.

      Of the four self-initiated reports, only one - Production Sharing - was
      initiated as a 332 study. The Branch Chief said that a study was initiated
      for Production Sharing because of strong congressional interest. A 332
      study was not initiated for Trade Shifts because it is not a request and
      is mostly summary data. 332 studies were not initiated for IER and ITTR
      because these are self-initiated reports expressing staff opinions, not
      those of the Commission.

The authority provided the Commission under section 332 is quite broad and we
believe applicable to all reports distributed outside of the Commission. The
reasons given for not initiating a 332 study were not consistent with 332 studies
that were initiated, e.g., 332 studies were initiated for some mandated and non-
request reports and several 332 studies were statistical or summary reports
rather than analysis.    In addition, initiating studies under the section 332
authority has certain advantages in obtaining data.


                                        6
Review Process

We found that twelve of the studies, all but the self-initiated IER and ITTR
studies, were initiated by action jackets and the reports for ten of the topics
were issued with action jackets. We believe the review process could be improved
by revising the policies to initiate studies and approve reports. The revised
policies should provide that all studies be initiated by action jackets which
set forth the period covered by the authorization and whether the report requires
Commission approval to be issued.

      Initiation. As stated in USTTC Directive 1201, proposals which require
      Commission approval under law, regulation or agency policy are to be
      presented to the Commission for approval in action jackets. We found that
      twelve of the recurring studies were initiated by action jacket, four of
      them on an annual basis and eight on a one-time basis covering all future
      reports.   The two studies not initiated by an action jacket were for
      reports not representing the views of the Commission and had been
      authorized via memoranda to the Commission.

      We believe that all of the recurring report studies should be initiated
      by an action jacket. Furthermore, we believe each approval should be for
      a set period, either annual or coinciding with the length of the request
      or a maximum period such as every three years.        A similar idea was
      previously expressed by the then Vice Chairman in a 1986 memorandum
      approving preparation of an annual Production Sharing report. The Vice
      Chairman stated that it is difficult to predict future demand for reports
      and may not be appropriate for the Commission to publish them on an open-
      ended basis; she suggested reviewing the authorization to publish the
      reports every three years. A periodic renewal would also allow new members
      of the Commission to be part of the decision process in continuing to
      prepare recurring reports. While the Vice Chairman's comments specifically
      pertained to the Production Sharing report, we believe they are applicable
      to all recurring reports.

      We think that a method for the Commission to revalidate the need for
      recurring reports is important and this is best accomplished through the
      action jacket process. The action jacket initiating a recurring report
      study could include the standard information on scope, format, schedule
      and costs. Additional information such as market changes, data usefulness
      or availability, and historical cost should also be included in order to
      fully evaluate what action should be taken concerning the report. Five
      of the eight action jackets that initiated studies in perpetuity are over
      three years old (East-West Trade, Rum, Nonrubber Footwear, Auto and SOC)
      and would need to be reinitiated under this new policy.

      We believe that all self-initiated studies should be initiated by action
      jackets, even those not expressing the views of the Commission.      The
      Commission's approval constitutes authorization for time to be spent on
      that activity, not an agreement with the opinions. The IER and ITTR are
      similar to staff studies which do not express opinions of the Commission
      but require the Commission's approval to be initiated.




                                        7
      Conversely, the Commission may want to consider periodic rather than annual
      initiation of studies for reports that have no change in the requirements,
      such as OTAP, CBERA, EC-92 and Production Sharing. Unless the Commission
      particularly wants to review the resources and time schedule annually, we
      believe a review every few years addressing broader policy issues would
      be sufficient for initiation.

     Approval.  Ten of the recurring reports were issued after being approved
     by the Commission on an action jacket. The quarterly Nonrubber Footwear,
     monthly Auto and quarterly SOC reports were given blanket authorization
     on the initiating action jacket for the reports to be issued based on
     office approval. The initiating action jacket for the monthly Steel (which
     expired in March 1992) also had a provision for the report to be issued
     with office approval. These 332 reports all have in common that they are
     repetitive statistical reports issued more frequently than annually.

      We concur that all reports do not need to be approved by an action jacket.
      One reason given for not requesting a blanket approval was the belief that
      nothing goes out of the Commission without an action jacket, which is not
      true. Establishing criteria on when blanket approval is appropriate would
      allow for objective consideration of this issue.


Recommendations

We recommend that the Director of Operations:

      3.    Establish criteria in coordination with the Office of General Counsel
            for determining which studies should be initiated under section 332
            and assign or delete 332 numbers to the recurring studies consistent
            with that criteria.

      4.    Formulate policies applicable to the initiation and report issuance
            of recurring reports via the action jacket process and coordinate
            with the Acting Secretary to incorporate these policies in USITC
            Directive 1201.


Commission Comments

The Director of Operations agreed that criteria should be established for
determining when studies should be initiated under section 332 (b) .      Several
conditions that could be used as criteria were presented; we particularly agree
that a 332 study should be initiated whenever the effort is likely to result in
a report that will be released to the President, Congress and/or the public.
The response concurred with our findings concerning studies mandated by statutes
other than section 332 but did not propose a policy; we believe this issue should
be clarified in the criteria developed for a policy directive.

The Director's response identified two additional reports that appear to merit
332 status and should have been included in this review. One is the annual
statistical report on U.S. imports of textiles and apparel under the Multifiber
Arrangement. The second is the Commission's annual report, which is statutorily

                                        8
required in section 332(g). We did not amend the statistics throughout the
audit report because the recommendations would not have been affected. However,
we do think that the fact that these two reports were not identified during the
review, even though we did extensive interviewing and document review, supports
the need to define the criteria for initiating 332 studies.

The Director of Operations also agreed with the recommendation to formulate
policies applicable to the initiation and report issuance of recurring reports.
The policies proposed in the response for action jackets addressed the report
findings although clarification will be needed in the revised directive on
applicability to current studies.



DIStRIBUTION
We found that multiple program offices maintained mailing lists either instead
of or in addition to the mailing list maintained by the Office of the Secretary.
We believe that this is inefficient in terms of maintenance, consistent
distribution of reports, duplication, and validation efforts. We also found
that a few program offices packaged the reports for mailing which we do not
believe is an appropriate function for those offices.

The multiplicity in distribution functions is due at least in part to the absence
of a Commission policy on a centralized mailing list and procedures for mailing
reports and/or publications. As set forth in USITC Directive 1005.1, a function
of the Office of the Secretary is to maintain or update mailing lists of
interested parties, but a policy directive has never been developed to establish
Commission policies relevant to this function. The Commission has a directive
on the use of different types of mail services (ITC Directive 3350 Mail Standards
and Procedures, dated February 28, 1978).          Officials in the Office of
Administration said that Directive 3350 was never intended to establish
comprehensive policy guidance on mailing.


Mailing Lists

The primary mailing list for the Commission is maintained on a software system
called ArcList that is physically located in the Secretary's office. The ArcList
system was activated in July 1992 to replace the Cheshire system.        A major
difference between the systems is that ArcList allows for remote maintenance.
The program offices, which have responsibility for maintaining parts of the
mailing list (adding, deleting and correcting names), can update ArcList from
their offices rather than having to go to the Secretary's office. This change
was perceived as a significant improvement by the program offices which did not
like to use the Cheshire system because of the limited access for maintenance.

The primary mailing list has developed over many years and is mostly based on
completion of a form, see Attachment 6. The form includes 24 options for the
master mailing list, including such categories as: All reports, General Studies
(Sec. 332, Tariff Act of 1930), and Agricultural products. Separate lists are
maintained for three economic (EC) reports and six statistical (IND) reports,



                                        9
all of which are issued on a recurring basis. Although not reflected on the
form, the statistical reports now include Trade Shifts, ITTR and Production
Sharing and a distinct list has been established for Autos.

Mailing lists for only six of the fourteen recurring reports were located solely
on ArcList. Four reports had mailing lists on the ArcList and separate lists
maintained by the program office. Three reports had mailing lists exclusively
controlled by the program offices. There was no mailing list for the report on
Ethyl Alcohol which consisted of a notice in the Federal Register.

The three reports for which the mailing lists were not on ArcList but on a system
controlled by the program offices were:

      ID/AG maintained a mailing list with 10 names to whom they mailed the rum
      report. A list with 17 names for the Rum report, which is a 332 study,
      was also on ArcList but was not used.

      ID/CH had responsibility for the mailing lists for the SOC report which
      was on the mainframe computer at the National Institutes of Health (NIH).
      The list for the annual report had 1800 names; the list for the quarterly
      and preliminary reports had about 1200 names. ID/CH also maintained a list
      of 36 names to whom the quarterly reports were faxed.

      EC/TRD maintained a mailing list of 500 names to whom the monthly IER
      report was mailed.

The four reports for which the program office maintained a mailing list in
addition to the ArcList were:

      EC/TRD maintained a list of 260 names to whom the EC-92 report was mailed.
      Bas~d on the Secretary's instructions, the Printing Branch mailed the
      report to names on the master list who requested all reports and all 332
      general studies.

      ID/GM maintained a list with 600 names to whom the Production Sharing
      report was mailed. Based on the Secretary's instructions, the Printing
      Branch mailed the report to names on the master list who requested all
      reports and all 332 general studies. Since the FY 1992 report was issued,
      a code for Production Sharing was added to the statistical list on ArcList.
      The ID/GM list, which was expanded to 2000 names, was transferred to the
      ArcList.

      ID/GM maintained a list with 79 names to whom the Nonrubber Footwear report
      was mailed. Copies were also mailed to names on the ArcList system who
      had requested all 332 reports and the Nonrubber Footwear report.

      ID/MM maintained a list with names of 200 producers to whom the semiannual
      Steel report was mailed. On prior annual Steel Reports, copies had been
      mailed to up to 420 names of outsiders, producers and purchasers.




                                       10
The Printing Branch also in effect maintained the following "mailing list" of
six names which received multiple copies of each report that they printed.

      Library of Congress                   105
      GPO-Federal Depository Library          2
      Canadian Embassy                        2
      British Embassy                         5
      Belgian Embassy                         4
      European Communities                    4

This list was developed approximately 30 years ago to accommodate requests for
multiple copies of the reports. We contacted two recipients: the GPO said that
only one report was needed and the addressee was incorrect;      the Library of
Congress said that the address and number of reports was correct and that these
copies are distributed to colleges and universities. The Office of the Secretary
found two names on the master list for the British Embassy but none for the
Canadian or Belgian Embassies.     The Office of the Secretary knew that the
Printing Branch had this list but did not know the specifics of who or why.
Although not currently set up to do so, ArcList can handle requests for multiple
copies so this list in the Printing Branch is no longer necessary.

In addition to the ArcList and program office mailing lists, individual
Commission employees also had personal mailing lists and the program offices
mailed a considerable number of reports after the initial distribution.      We
compared the amount of print stock requested by the program offices in excess
of that needed for immediate mailing on the nine reports with print requests.
The requests varied from 25 copies for Production Sharing, less than 100 copies
for three reports, 100 to 450 copies for four reports, to 2000 copies for the
EC-92 report. Staff members said that these additional copies were to send in
response to future requests for the reports and copies were sometimes given to
the Office of the Secretary when their stock was depleted. In comparison, the
Secretary never asked for more than 250 reports for stock and usually only
requested 100 or 200 copies.


Designating Report Recipients

We found that there is not an official policy on who is to receive copies of
reports. The general policy espoused by the Office of the Secretary was to send
all reports to names on the master list who had requested all reports and to
other names as appropriate, e.g., all 332 reports and specific industry and
economic reports. The practice in following the policy was inconsistent.

      Four reports were not sent to the names requesting all reports. These
      reports were Auto and Nonrubber Footwear, which are 332 reports; OTAP,
      which is an official Commission publication; and the ITTR.

      One 332 report, Production Sharing, was not sent to names requesting all
      332 reports.

Copies of the reports whose mailing lists were not on the ArcList and the
printing requests did not go through the Secretary's office were not mailed to
names on the master list that had requested all reports or all 332 studies.

                                       11
We think that it is unnecessary and excessive distribution to send all reports
to names on the master list. Even though the form implies that the requestor
will receive all publications that fall within the areas requested, we believe
the requests should not apply to the recurring reports which have, or could
have, specific mailing lists.


Duplication

A concern of nearly everyone that we spoke with was whether duplicate reports
were being mailed to the same recipient.     The ArcList system is designed to
prevent this from happening. Each name is assigned codes based on the request.
The applicable codes from the master and other lists are entered on the printing
request. One label is printed for a name even though there are multiple codes.
The Office of the Secretary also spends one or two days per pay period conducting
a "merge/purge" of the file based on near matches (rather than exact matches
which does not identify as many possible duplications). The program offices can
also check for whether a name is already on the system before adding it and the
Secretary conducts a merge/purge of these program office additions before they
are added to the official list.

The controls against duplicate mailings do not work if other lists are used in
addition to the ArcList. Duplicates would be most likely to occur on the EC-
92, Production Sharing and Nonrubber Footwear reports which used both a program
office list and the ArcList. Program officials said that they did not think
there would be duplication because the names on their lists were not likely to
be on the ArcList, but an actual comparison had not been done.


Validation

As a policy, the names and addresses on the master mailing list are verified
annually by sending out a copy of the mailing label and asking for confirmation.
Verifications were done in June 1991 and December 1992. The verification does
not ask whether the recipient wants to add or delete any requested document
categories. The recipients solely on the IND and EC lists are not included in
the verification.
Several program offices validated mailing lists for six recurring reports in FY
1992. A postcard was inserted into the CBERA, OTAP, Trade Shifts, Production
Sharing, and ITTR reports asking if the recipient wanted to continue receiving
the report and for comments. A similar self-mailer was wrapped around the IER
reports in March 1992 and again in April 1992 with a notice that this was a final
notice to renew the subscription.    Although not considered a validation, EC
conducted a phone survey of the recipients of the East-West Trade report in FY
1992.
The impact of the validation efforts on the mailing lists was difficult to
summarize. Concurrent with validating the lists, several program offices were
trying to identify additional names that should be added to the mailing lists.
For example, Production Sharing had a list of 600 names which was expanded to
about 2000 names which are currently being entered onto ArcList.        Program
officials said that any reductions in names may not be permanent either. About



                                       12
half of the names were dropped from the IER mailing list, but program officials
attributed this to an oversight in not returning the card; now people are calling
to be placed back on the list after discovering that they have been dropped.
Once the mailing lists are centralized, the validation process should also be
handled by one office so that a coordinated approach is taken for all lists on
ArcList and efforts are not duplicated.

Packaging

We identified a few instances in which the program office not only maintained
the mailing list and prepared the labels, but also packaged the documents for
mailing.
      ID/AG had report covers printed for the Rum report, assembled the report
      and packaged it for mailing to the 10 names on their mailing list.

      EC/TRD packaged the EC-92 report sent to the 260 names on their mailing
      list.
      ID/GM packaged the Production Sharing reports to mail to the 600 names on
      their mailing list.
      ID/GM and EC/TRD packaged reports in 1992 containing the validation cards.
Officials said that they did the packaging because it could not be done when
requested, the packaging was too complicated for the Printing Branch to handle
or they wanted to make sure the validation card was correctly inserted in the
report.
There may be emergency cases when it is necessary for the program offices to
package reports for mailing, but on the whole, we believe that program offices
should not be performing this function.


Reconunendations

We recommend that the Director of Operations:

      5.     Transfer all mailing lists for recurring reports to the ArcList.

      6.    Notify the Acting Secretary that recurring reports should not be sent
            to names on the master list and coordinate in revising the form so
            that recurring reports must be specifically requested in order to
            receive them.

      7.     Develop a coordinated approach with the Acting Secretary           to
             periodically validate mailing lists for recurring reports.

      8.     Require the Directors of Industries and Economics to approve any
             packaging to be performed by program staff.




                                       13
Commission Comments

The Director of Operations agreed with these recommendations. He will request
that the Acting Secretary not send recurring reports to names on the master list
or the 332 general list. The Director will also instruct his staff that any
packaging to be performed 'by program staff must be approved by the Directors of
Industries and Economics.

The Director agreed with the recommendation to develop a coordinated approach
with the Acting Secretary to periodically validate mailing lists for recurring
reports. However, the response continued with a caveat that due to resource
considerations in the Office of the Secretary, the program offices will continue
to be responsible for the actual validation of their mailing lists.         This
arrangement sounds very much like the status quo and is not the coordinated
approach that we envisioned.

We think that the Office of the Secretary, which has responsibility for the
mailing list, should be determining the validation approach (e.g., card design,
question format) and arranging the process based on input from the Office of
Operations. From a Commission viewpoint, it is more efficient to have one office
perform these functions rather than multiple project leaders. Furthermore, the
major resource consideration would be the actual adding and deleting of names
which would be done by the program offices.



USI Of TIl GOVUNltINT PURlING OffICI

The issue of costs as it relates to the mailing of reports to the public has
long been a concern of the Commission. In 1980, a Commissioner requested that
alternatives to the Commission's paying for the printing and distribution of
the new Commission reports, such as GPO or the National Technical Information
Service, be considered.    The 1987 GAO report stated that the recurring reports
principally represent an information service for a specific industry rather than
the government and the Commission may wish to eliminate them or curb their
frequency and examine the appropriateness of charging for copies of such reports.
Most recently, at the Commission's FY 1994 budget hearing, the Chairman tasked
the Acting Secretary and the Director of Administration to review the printing
and mailing costs and recommend procedures and controls to reduce substantially
those costs.

A very direct method to reduce these costs would be to limit availability of
the reports to the public.    However, we concur with an opinion expressed by
multiple Commission staff that reports should be made available to the public.
Commission staff said that virtually all of the recurring reports should be made
available because of their unique content; for example, the OTAP report was
referred to as an encyclopedia for trade agreements and the SOC as the
"industry's bible of chemical production and sales statistics since 1917".
Distribution of the reports was also viewed as bringing visibility to the
Commission and recognition to the staff. On the other hand, we also concur with
a statement made by a prior Commissioner that if this data is truly of value to
the business community, they will be willing to pay for these publications.



                                       14
We believe that one way to achieve a cost reduction goal and still provide
reports to the public would be to increase the Commission's use of GPO. This
would be possible if the Commission only distributed reports to the minimum
extent necessary to meet statutory requirements (e.g., Congress, the Executive
Branch, and limited other agencies). The Commission could then give copies of
the report to GPO to sell to the public which would significantly reduce the
Commission's postage and associated costs for mailing recurring reports.
Furthermore, if the Commission chose to only print the number of reports needed
for the minimum distribution and had GPO do the second printing for sale to the
public, printing and overtime costs would be reduced. Costs for storage and
handling of reports would also be reduced.

The Commission makes limited use of the GPO at least in part due to past problems
encountered in the timely and accurate printing of reports. We share the concern
expressed by various officials that reports must be printed accurately and in
a timely manner and therefore are not recommending that GPO necessarily be used
to print the recurring reports. However, GPO representatives said that it is
not required that GPO do the printing in order for them to sell the reports.
GPO has authority to accept printed documents as "gifts", sell them in the same
manner as the documents which they print, and handle any additional printings
that are needed.

The GPO distribution system is extensive and varied. Documents can be ordered
by mail, phone, fax or the DIALOG Information Retrieval System. Documents can
be purchased in person at 23 bookstores throughout the country, an option which
is very popular in the Washington D.C. area where firms often send couriers to
pick up documents. GPO accepts checks, charge cards and has deposit accounts.
Documents can be ordered individually or a subscription can be purchased for
periodicals. Special shipping and international mail is available for mailing,
which is routinely done third class or bulk. Publications produced in electronic
format are available for sale in magnetic tape form.

The GPO system also provides automatic access to the Federal Depository Library
Program, a major means by which the Federal Government fulfills its information
dissemination responsibilities to the citizenry. Unclassified publications of
public interest are provided to the 50 regional depository libraries and selected
publications to the approximately 1,350 other participating libraries.

GPO advertises extensively which could increase the visibility of some reports.
Sales brochures are periodically published entitled "Government Periodicals and
Subscription Services, U.S. Government Books for Business Professionals, New
Books, and Subj ect Bibliography". GPO also uses flyers and sales letters to
promote selected publications to specific audiences. Some of these documents
include brief descriptions of the publication, which Commission staff could write
if they so desired.

At one time, the Commission did have GPO print and distribute one recurring
report -- the annual SOC. The Commission tried to discontinue this report in
1988 but was unsuccessful. The last edition that GPO printed and distributed
was the 1988 annual SOC report of which 554 copies were sold for $15.00 each (an
unknown number were distributed free of charge by the Commission).      In 1989,
the Commission began printing and distributing the report. The current mailing
list has 1800 names. The Commission incurred over $8,000 in direct costs to

                                       15
produce the annual SOC report in FY 1992 ($5,220 to mail, $2,952 to print, plus
handling and overhead). If 554 copies of the report were sold by GPO at the 1988
price, the Commission would have reduced their costs by $8,000 and GPO would have
earned income of approximately $8,310.

The Nonrubber Footwear monthly report is another example of a report suitable
for distribution by GPO. The report is based primarily on data from the Footwear
Industries of America's report. The Commission has tried several times to scale
back the requirement and/or the frequency of this report. However, the footwear
industry wants the Commission to continue issuing the report which they like to
reference during congressional hearings. Even if only half of the 79 names on
GM's mailing list purchased the report, GPO would earn more than the $200 minimum
that they have established.

We believe that recurring report recipients would have minimal objections to
paying reasonable prices for the reports. This attitude was expressed in a 1987
Chemical Marketing Research Association publication which stated that the SOC
required seven work years costing $400,000 to produce and suggested charging
higher subscription fees for companies and individuals interested in receiving
the reports as an alternative to cancelling the report.

GPO provided price estimates for several reports with the caveat that actual
rates would vary based on the specifics of the sales agreement. As shown in the
following chart, the estimated annual subscription prices are reasonable; the
approximate amounts of domestic postage paid by the Commission annually for these
reports are provided as a comparison of the minimum amount that the Commission
could save by using GPO.

Report Topic                   Approx.        Annual Sub-           Commission
                               pages          scription Price       Postage

Quarterly Nonrubber                                                 .52 x 4
 Footwear (4 issues)             7            $ 6.50                $2.08

Monthly Auto                                                        .52 x 12
  (12 issues)                    8            $19.00                $6.24

Annual Trade Shifts
  (1 issue)                    147            $ 9.50                $2.90

We believe that GPO is capable and the content of Commission recurring reports
is appropriate for sale by GPO.    The Commission has one report printed and
distributed by GPO, the Tariff Schedule, and has received a few complaints but
we think that is to be expected in any system.      The number of agencies and
publications that are distributed by GPO is evidence that their system is
operating with some degree of efficiency. The data in Commission reports is
comparable to that in documents prepared by other agencies and sold by GPO. A
page from the GPO list of Government Periodicals and Subscription Services, see
Attachment 7, includes multiple reports on products, trends and statistics.

The GPO representatives were very eager to work with the Commission in selling
reports. They understand that the Commission would have to provide copies of
reports to some recipients, although this needs to be limited in order for them

                                         16
to be able to sell copies. Their experience with the SOC was favorable and based
on the recurring report topics that we discussed, they thought these reports
would be good candidates for sale also.

The past Director of Congressional Liaison said that, in her op1n1on, Congress
would not object to using GPO to sell the recurring reports as charging for
services has become an accepted method of containing the costs of government
operations.


Recommendations

We recommend that the Director of Operations:

      9.    Determine what is the minimum distribution of each recurring report
            that the Commission must make in order to meet the requirements of
            section 332.

      10.   In coordination with the Director of Administration, meet with the
            GPO Superintendent of Documents to identify which recurring reports
            GPO is willing to sell.

      11.   For reports accepted by GPO, reduce the Commission's mailing lists
            to the minimum level identified and coordinate with the Office of
            Public Affairs to revise the press release to include instructions
            on how to procure the report from GPO.


Commission Comments

The Director of Operations agreed with the above recommendations. The response
states support for minimizing the lists for report distribution, but the
components of the minimum list give a different impression. We believe that the
policy, when formally established, will need to be worded with a different
emphasis if the lists are truly to be minimized. Any exceptions to the policy,
such as those proposed for Trade Shifts, IER, and ITTR, should be approved in
the initiating action jacket.

The Director of Operations concurred that at least eight recurring reports could
potentially be sold by GPO. His staff is currently working with the Office of
Administration to present information on these and the reports with less certain
interest to GPO for consideration.    We will continue to monitor the process
through the decision phase for each recurring report.




                                       17
                                                               Attachment 1


                   LIST OF RECURRING REPORT TOPICS

OFFICE   332 No.   Report Topic                        Short Title

ID       332-288   Ethyl Alcohol                       Ethyl Alcohol

EC       332-227   Report on the Impact of the         CBERA
                   Caribbean Basin Economic
                   Recovery Act on U.S. Industries
                   and Consumers

EC                 THE YEAR IN TRADE                   OTAP
                   Operation of the Trade
                   Agreements Program

EC                 Trade Between the U.S. and China,   East-West Trade
                   the Former Soviet Union, Eastern
                   Europe, the Baltic Nations, and
                   Other Selected Countries

ID       332-175   Rum: Annual report on Selected      Rum
                   Economic Indicators

ID       332-191   Nonrubber Footwear Quarterly        Nonrubber Footwear
                   Statistical Report

EC       332-267   The Effects of Greater Economic     EC-92
                   Integration within the European
                   Community on the U.S. 1/

ID       332-207   The U.S. Automobile Industry        Auto
                   Monthly Report on Selected
                   Economic Indicators

ID       332-327   Steel:   Semiannual Monitoring      Steel
                   Report

ID       332-135   Synthetic Organic Chemicals         SOC
                   U.S. Production and Sales

ID                 U.S. Trade Shifts in Selected       Trade Shifts
                   Commodity Areas

EC                 International Economic Review       IER

ID       332-237   Production Sharing: U.S. Imports    Production Sharing
                   Under Harmonized Tariff Schedule
                   Subheadings 9802.00.60 and
                   9802.00.80

ID                 Industry, Trade and Technology      ITTR
                   Review
1/   The Office of Economics disagreed with our classification of EC-92 as a
     recurring report on the basis that it was one study being done in
     phases. We believe the annual nature of the EC-92 report is more
     comparable to studies issued on an annual basis, such as CBERA and Trade
     Shifts than reports that are issued in phases which address different
     aspects of the issue being studied.
                                                                                                  Attachment 2
                                       SUMMARY OF RECURRING REPORTS

                                                                              Year         Sunset
Report Topic           Period             Citation          Initiated         Orisdnated   Date

Ethyl Alcohol          Annual             19 USC 2703       12/12/89          1989         none II
                                          Sec. 7(b)

CBERA                  Annual            19 USC 2704(a)     08/05/83          1983         none '2/
                                         Sec. 215 (a)

OTAP                   Annual            19 USC 2213        01/03/75          1930   11    none
                                         Sec. 163(b)

East-West Trade        Quarterly         19 USC 2440        01/03/75          1975         none
                                         Sec. 410

Rum                    Annual            SFC                12/21/83          1983         none !il

Nonrubber Footwear     Quarterly          SFC               08/08/84          1984         none

EC-92                  Annual   ~         SFC & HW&M        10/11/88          1988         April 1993   ~I


Auto                   Monthly           HW&M               02/12/85          1980   QI    none

SOC                    Quarterly         HW&M               04/27/88          1917   II    none
                       Pre1./Annual

Steel                  Semi-Annual       HW&M               06/11/92          1983   Y     April 1995

Trade Shifts           Annual   ~I        ITC               03/24/92          1980   ~I    none

IER                    Monthly            ITC               05/06/80          1980         none

Production Sharing     Annual             ITC               05/11/89          1970   101   none

ITTR                   Quarterly          ITC               07/30/92          1974   ill   none

Bold type for titles indicate those recurring reports that are not section 332 investigations.
 II The legislation enacted in 1989 provided for this study to be conducted annually for two years, 1990 and
    1991. PL 101-382, 8/20/90, amended the legislation to delete the sunset date.

 11 The legislation enacted in 1983 stated the report would be conducted through 1995, coinciding with the
      CBERA program. The Caribbean Basin Economic Recovery Expansion Act of 1990 amended the legislation to
      extend the CBERA program and therefore, the study, indefinitely.

 11 This report was originally mandated by the Tariff Act of 1930, and was subsequently conducted in
      response to Congressional or Commission needs until the Trade Act of 1974 instituted the current
      requirement.

 ~I   Required on a calendar-year basis as long as rum is accorded duty-free treatment pursuant to the CBERA
      program, which has been extended indefinitely, see footnote 11.

 ~I   The request did not specify the frequency of reporting. Semi-annual reporting was established in 1989
      and changed to an annual basis in 1991. The request stated that reports should be provided "as
      necessary" to which the Commission has established a sunset date of April 1993.

 QI HW&M submitted an annual request until 1985 when the request contained no sunset date.
II The report was initiated in 1917 in response to a provision in the Revenue Act and was subsequently
   conducted in response to various legal, congressional or Commission needs until HW&M made a request in
   1988 for the report to be conducted for an indefinite period.

 ~I   In February 1983, HW&M requested monthly reports through December 1985. In March 1986, HW&M requested
      monthly reports coinciding with the Voluntary Restraint Agreements originally expiring in September 1989
      and extended until March 1992. In November 1990, HW&M agreed to change the monthly report to a
      quarterly format through June 1992. Elements of the monthly and quarterly reports, as well as the
      annual steel reports that expired in 1991, were incorporated into the current request.

 ~I   In October 1980, the Commission approved the issuance of four quarterly and an annual report. The
      format was changed to a semi-annual report in December 1990. After meeting with staff from HW&M and SFC
      in March 1992, the report was changed to an annual format.

101 SFC requested a report ~n 1970. The Commission has continued this effort as a self-initiated study
    since then except for 1987 when a request was received from HW&M.

111 From 1974 to 1977, the Commission issued a report called Monthly Highlights.    In May 1977, the
      Commission began issuing the Monthly Import/Business Review. Based on the discussion with HW&M and SFC
      in July 1992, the monthly reports were dropped and the quarterly ITTR reports initiated.
                                                                                                  Attachment 3
                                       COMPARISON OF THE REVIEW PROCESS

                                                                   Initiated by           Issued with
      332 No....       Report Topic              Period            Action Jacket          Action Jacket

      332-288          Ethyl Alcohol             Annual            03/09/90               yes

      332-227          CBERA                     Annual            each year              yes

                       OTAP                      Annual            each year              yes

                       East-West Trade           Quarterly         01/03/75               yes

      332-175          Rum                       Annual            01/13/84               yes

      332-191          Nonrubber Footwear        Quarterly         08/08/84               no II

      332-267          EC-92                     Annual            each year              yes

      332-207          Auto                      Monthly           02/22/85               no 11

      332-135          SOC                       Qtr1y/Prel.       05/13/88               no 11
                                                 Annual                                   yes

      332-327          Steel                     Semi-Annual       07/09/92               yes

                       Trade Shifts              Annual            03/24/92               yes

                       IER                       Monthly           no !il                 no

     332-237           Production Sharing        Annual            each year              yes

                       ITTR                      Quarterly         no     ~I              no

Bold type for titles indicate those recurring reports that are not section 332 investigations.
11 Does not require approval by the Commission, as stated in the Action Jacket ID-9l-039, 10/09/91

11 Does not require approval by the Commission, as stated in the Action Jacket ID-85-ll, 03/06/85.

11 Does not require approval by the Commission, policy established over 30 years ago, according to
   program office.

!I The Commission approved the institution of a system of reporting on international economic conditions
   at a meeting in May 1990, which resulted in the initiation of the IER report. According to the
   Offices of Economics and the Secretary, an action jacket probably did exist but a copy could not be
   found.

~I   The prior publication, the Monthly Import/Business Review, was initiated via an action jacket in May
     1977.
                                                                                                 Attachment 4
                                            COMPARISON OF THE MAILING PROCESS

                       Location          Valida-            Packages            Size of          Est. Domestic    Est.
Report Topic           of List           tion               Documents           List             Mailing Cost $   Cost $

Ethyl Alcohol          N/A               N/A                N/A                   N/A             N/A                N/A

CBERA                  SE                9/92               OMS                 1,436            1.90              2,728

OTAP                   SE                 8/92              OMS   II            1,193            2.90              3,460

East-West Trade        SE                none               OMS                 1,783            2.59 ( X 4)      18,472

Rum                    AG                none               AG                     10             .52                  5

Nonrubber              SE                none               OMS                   228             .52 ( X 4)         474
Footwear               GM                                   GM 11                  79             .52 ( X 4)         164

EC-92                  SE                none               OMS                   950            2.90              2,755
                       TRD               none               TRD                   260            2.90                754

Auto                   SE                none               OMS                   303             .52 ( X 12)      1,891

SOC - Annual           CH Y              none               CH/OMS              1,800            2.90              5,220
    - Qtr1y/Prel.      CH 11             none               CH/OMS              1,167 !il         .29 ( X 5)       1,692

Steel                  SE                none               OMS                   943            2.36   ~I         2,225
                       M&M                                  M&M                   200            2.36   ~I           472

Trade Shifts           SE                 6/92              OMS   QI            2,800            2.90              8,120

IER                    TRD                3 & 4/92          TRD/OMS               500             .75 ( X 12)      4,500

Production             SE                 1/91              OMS                   875            1.67              1,461
Sharing                GM                 1/91              GM                    575            1.67                960

ITTR                   SE                 11/91             OMS                 2,613             .98   II         2,561

Bold type for titles indicate those recurring reports that are not section 332 investigations.
II The reports were packaged by TRD once in 8/92 to ensure that the validation cards were properly
   enclosed.

11 GM assumed responsibility for this report from TX around June 1992.

11 Two separate mailing lists were maintained on the NIH mainframe for the annual and quarterly reports.
   NIH prepared mailing labels upon request.

~I   CH also has a list of about 36 names to whom the quarterly reports are faxed.

~I   Only one semi-annual report was issued in FY 1992 so the mailing costs have not been doubled.

~I   GM assisted in packaging the reports once to enclose the validation cards.

II Only one ITTR report was issued in FY 1992 so the mailing costs have not been quadrupled.
                                                                  Attachment 5


                     REDUCTIONS IN RECURRING REPORTS SINCE 1987


Report               Action

Brooms               terminated 1987               Presidential request revoked

Mushrooms            terminated 1987               Sunset date in Presidential
                                                   request

Motorcycles          terminated   1988             Sunset date in Presidential
                                                   Proclamation

Specialty Steel      terminated 1989               Sunset date in Presidential
                                                   Proclamation

Annual Steel         terminated 1991               Sunset date in request

Lamb Meat            terminated 1991               Sunset date in law

Tungsten Compounds   terminated 1991               Sunset date in Presidential
                                                   Proclamation

Production Sharing   scope reduction 1991          ITC decision

Quarterly Steel      changed to semi-annual        Congressional request changed
                     1992

Monthly Import/      changed to quarterly          ITC decision
 Business Review     1992

Trade Shifts         changed to annual 1992        ITC decision
(semiannual)
         orncs OF     1liE SECRETARY
                                                                                        Attachment 6




         UNITED STATES INTERNATIONAL TRADE COMMISSION
                                          WASHlNGTON. D.C. 20436




        You have requested to be placed on the Secretary's Office mailing list to receive USITC
publications. So that we may serve your needs, and at the same time keep printing and postage
costs low, we are asking that you answer the questions below and return this form to us.

1.)     Is the address correct as shown above? If not. please make necessary corrections.
including the addition of your suite or room number and attention line. if applicable.

2.)     From comments and inquiries we have received in the past. we know that many recipients
do not want or need a copy of all of our publications. Therefore. we are only able to send those
publications marked.


       If you wish to receive any of the general publications below, check the appropriate boxes.

               (1 )      All reports

               (2)       Press Releases

               (3)       Summaries

               (41       Notices of Investigations

               (5)       Agendas

               (61       Monthly Calendars

               (71       Announcements regarding the publication of the Harmonized Tariff
                         Schedules of the United States (Annotatedl

               (81       Annual Reports

       If you are interested in receiving ONLY reports of investigations and studies conducted
under specific laws. or relating to specific subject areas. please check the appropriate boxes:

               (91       Dumping and reviews (Title VII. Tariff Act of 1930)

               (10)      Countervailing duty and reviews (Title VII & Sec. 203. Tariff Act of 1930.
                         Sec. 204. Trade Agreements Act of 1979)

               (111      Escape clause and reviews (Sec. 201 & 203. Trade Act of 19741
               (121    Unfair import practices (Sec. 337. Tariff Act of 1930 & SEC. 603. Trade
                       Act of 19741

               (131    General Studies (Sec. 332. Tariff Act of 19301

               (141    Market Disruption (Sec. 406. Trade Act of 19741

               (15)    Probable effect of trade agreement concessions. GSP (Sec. 131 & 503.
                       Trade Act of 1974)

               (16)    Interference with agricultural programs (Sec. 22. Agricultural Adjustment
                       Act)

               (17)    Miscellaneous

               (18)    Agricultural products (except fibers)

               (191    Lumber and forest products. including paper and its manufacturers

               (201    Fibers. textiles and clothing

               (21)    Chemicals. petroleum

               (221    Non-metallic minerals and their manufacturers

                (23)   Metals and their manufacturers. including machinery and electronic
                       products

                (24)   Miscellaneous products (including footwear. leather. leather goods. optical
                       and scientific instruments. musical instruments. furniture. sporting goods.
                       jewelry. plastic articles)


       Economic Reports:

                (EC)   East-West Trade Reports

                (EC)   Operations of the Trade Agreements Program (OTAPI

                (EC)   Caribbean Basin Initiative


       Statistical Reports:

                UND)   Automobiles

                UND)   Steel

                UND)   Rum

                UND)   Non-rubber footwear



                                                       Kenneth R. Mason
                                                       Secretary   ,

Please return to:

Lisa M. Maddox
Office of the Secretary
U.S. International Trade Commission
500 E Street SW.
Washington. DC 20436
                                                                                                                                                                                                                                      Attachment 7
                                                EXCERPT:                      GOVERNMENT PERIODICALS AND SUBSCRIPTION SERVICES
                                                                                                                                 COMMl.CE--Cenllnue4                                   "-      COMME.a-CoIIII......                            POI·
                                                                                                                                     Count, Ru.ln_ P.tlern•• 1990                         12      Unlt.ed Slat... Mereh.,.dlae Trode:
                                                                                                                                     Current Buslneu Reporlo                             12         Exporla. General Impor~••nd
                                                                                                                                     CurnIDt Blllln_ Reportn: Month-                                Impor~ for COn.umptlon                      46
                                                                                                                                        ly Whole... le Tr.de. Soletl••nd                       CONGItISS Of 'HI u.s,
                                                                                                                                        Inventorletl                                     12
                                                                                                                                                                                                  Calend... oC the U.S. HoUle of
                                                                                                                                     Current Housinl Reporlo. H-II I.
                                                                                                                                       HOUllngV.c.ncl                                    18         Repreaenlatloetl .nd "I.tory of
                                                        AGENCYINDEX                                                                                                                                 Leg"'.tlon                                   6
                                                                                                                                    Cllm!nt Houai", Reporla. H-130.
    AO.ICULTU.E DEPA.IMENI                              "-                                                                             M.rbt Aboorptlon of Apart.                                 Con,r_lon.1 Record                            II
                                                                        AO.ICUUU/l1DEPAIfMINI-                           p...
                                                                                                                                                                                                  Conlr_lonal Record. Mlcrofich                 II
        AccepllodMe.t .nd Poultr, EquIp-
          ment          ;................................ I
                                                                           CenJI"".'                                                    menla
                                                                                                                                    CurrentlnduatrlaJ Reporta
                                                                                                                                                                                         13
                                                                                                                                                                                         13       Economic Indicalors                           17
                                                                           Me.t and Poultry In.pectlon 01·
        AIEaporter                                        I                                                                         Current PopulaUon Reporta                            16       Government P.per Speclnc.llon
                                                                              recto..,                                     31
        Alrlcultur.IOullook........................ I                      Meat and Poultry In.pectlon                              Eaport Admln ..tr.llon Retrul.-                                 Sland.rda No.9............................. 25
        Alrlcullur.1 !Ieee.reh                 ~ .._... I                                                                              Ilona                                             18       Private Bill                                  38
                                                                             M.nu.1 and Compll.tlon of
        Alrlcultural SlatlKlca Board Jle.                                    Me.t and Poultry In.pectlon I.                         F"hery Bullelln             ~                        23       Public Bill.. Reoolutlon.. .nd
              por~:
                                                                             .u.ncero                                       31      Foreign Economic Trenda .nd                                     Amendmenla                                  38
               Alrlcwtural Prlce8                                  2       Mr.t .nd Poultry In.pectlon Retru.                          Their Impllc.tlon. for the                                 Reporlo on Puhllc BII                         40
               C.W.h .nd Catfi.h Produc-
                                                                             lallon                                        31           Unlt.ed 51                                       24       Unlt.ed Statea Code, Title 38, Vet·
                  lion                                            2        ResIdue Chrmiotry Guld e book (See                       Gooernmenla Quarterly ReporL                         2fj        er.na· Renenta                              45
               Callie                                             2                                                                 Journal of Reae.rch of the N.tlon-                         DEfENSE
               Cele..,                                            2          An..I,'ical Chernillry Lallomlo-
                                                                             ry Guideboo'. Rnidu. CIl.mil·                             .1 lnatltule of Sland.fda .nd                               Air Force Comptroller...................... 3
               Cold Slor.ge                                       2                                                                    TechllOIOIY..................................... 28         Air Force Federal Acqul.ltion R"I'
               Crop Production                                    2          Iry.J
                                                                           Rural De••lopment PenJpectivetl ... 40                   M.nual of CI....mcallan [P.lent                                   ulatlon.Suppl..ment.................... 3
               0.1.., Produc~........................... 2                                                                             .nd Tredemark Office]                             29
               Eel rroduc~.............................. 2                 Sltuellon .nd Oullook Reporlo:                                                                                          Air Force Journal of LoRI.tlea......... 3
                                                                                A,rlcultur.1 ReFourcero                    41       M.nu.1 of P.tent Eumlnlng Pro-                                 Air Force Law Reole w...................... 3
               £Sll. Chlc"enl .nd Turkey..... 2                                                                                        cedure                                           30
               Gr.ln Stock................................ 2                    Agriculture .nd Trade Report 41                                                                                    Airman                                                3
                                                                                COtlon.ndWool...                           41       M.nual of R"ulallon. and Proee-                                Alrpower Journ.I............................. 3
               1101•• nd Pig.............................. 2                                                                           durea for Feder.1 Radio Fre-
               Uveotock SI.ughter                                 2             D.lry                                      41          quency M.nagement                                30
                                                                                                                                                                                                   All Hand                                              3
               Milk Production                                    2             Feed                                       41
                                                                                                                                    M.rlne Flohrrl.. ~olew                              30
                                                                                                                                                                                                   Appro.ch............................................ 4
               Non-Cltru. FruJ~ nnd Nula..... 2                                 fruit .nd Tr.,., Nul                       41                                                                      Army Cemrnunlceter                                    4
                                                                                                                                    M.rlnefA Wr.ther                                    31
               Pe.nu~Stocka .nd Proc_lnl. 2                                     L1,. .tock .nd Poultry                     41       Monthly .nd Se.lOn.1 We.thrr
                                                                                                                                                                                                   Army l.ewyer                                          4
               Pol.. lon...................................... 2               011 Crop'                                   42          OuUook                                           32
                                                                                                                                                                                                   Army LogloUciRn                                       4
               Poulll)r SI.ughter                                 2            Outlook for Unlt.ed Slaleo AI'                                                                                      Army RD&I\ hulletin....................... 4
                                                                                                                                    NOAA Diolnll M.nuel                                 35
               Rice Slocka                                       2                rlcultural Eaporl                        42       Oce.nlJtlr.phle Monthly Summory 88                             Army R.... n. M.gulne.................. 6
               Velelobles................................ 2                     Ric                                        42                                                                      Army Trainer                                          6
                                                                                                                                    Official Gautle of the United
          An.lytic.1 Chemi.!ry Labor.lory                                      SUI.r .nd Sweetener                         42                                                                      CRlolOltlnll H.ndbook H41118                          7
                                                                                                                                       Slalea Patent .nd Tradrm.rk
            Guidebook. Ildidue Chem"!ry                                        Tobacco                                     42                                                                      Citlz.n Alrm.n......                                  9
            (Formerly Rnidue Chemi.,ry                                                                                                 Office: Pelenla                                  36
                                                                                Vegelabletl.nd Specl.ltietl                42       Official Guette of the United                                  Civl/l"" M.npower Stlltistira.......... 9
            Guidebool./                                     ..                 Wheal                                      42                                                                      CML, Army Ch.mlc.1 Re.lew......... 9
          Economic Indlc.to.. of the F.rm                                                                                             Slalea Palent .nd Tr.dem.rk
                                                                               World I\'rlcultu"'                         42          Office: Tr.dem.rk!                                36        Comb.t C"'W                                           10
            Sertor                                              17        Soll.nd W.lerConaerv.lion New. 42                                                                                       Conlb.t Edlle 'Formerly TAe
         F.mlly EronomiCllReview                                19                                                                  OoeraeOl Bu.ln_ ~porla                              37
                                                                          St.ndafda .nd Labellnl Policy                             Polent .nd Tradem.r. Office No-                                  AII..ell                                           10
         F.rmer Cooper.lI.ea........................ 19                     Boo                                           4:1                                                                     Campanlea Pnrticip.ting In the
         F.rmline                                               19                                                                    Iicea                                            37
                                                                          Tr Plnnt.r.· Not                                44       Qu.rlPrly Fln.nclAI Rrport for                                    Dep.rtment of Defen., Subcon·
         Fire MonAl!ement Noleo                                23         World A,rlcultur.1 Supply .nd
         Food New. for Con.umen                                24                                                                     M.nufacturl"ll. Mining .nd                                     tmcllnl PrOlr.m                                   10
                                                                            Demend F.8tim.leo                            47           Tr.de COrporalion.......... ............. ~9                DCAA Contr.ct Audit Menu.1
         Food Re.iew
         Foreiltn I\ltrirultur.1 Trode of the
                                                               24
                                                                       COMME.CE                                                    Report on Cotlon G1nnlnll" by                                    fformerly           Orr.....       C..,IIlmrl
           United Slnleo                                       24         Bu.ln_ A.nericA                                  6          COunllea                                         39           Audil M.. II~a'.I...                               16
         Journ.1 or Alrlculturol Eronomlea                                Cen.u••nd you                                    8       Reporl on Cotlon OInnlng. by                                   Defe""" Contr.ct Audit M.nual
           n reh                                               28         Cen.u. Fln.1 Reporla                             A          Stalea                                           39           ,See 1}CAA Colllmel Audil
                                                                                                                                   Srhedule B                                          41
         Lilt of M.leri.'. I\cceptable for
           Ullt all So.tem. or REA Electrln·
           calion Borrowen                                     29
                                                                          Cen.u. of Aftrlculture. Ad••nce
                                                                            Reporla.1987................................ 8
                                                                          CeDlU. Prell mlnary Reporla .......... 9
                                                                                                                                   Stable Implemenlalion
                                                                                                                                     menla ror Open Syttem. Inter·
                                                                                                                                                                           "1'_                     MOllu..'.'
                                                                                                                                                                                                  Defense 92
                                                                                                                                                                                                  Dep.rtment or Def"""" Index of
                                                                                                                                                                                                                                                       16

         Lilt or M.terlaL, Acreptable ror                                 Clnasinc.Uon DefinitiolllllPolentol 9                      c:orlllection Protocol. Ve..lon 6.                             SP'!Clfic.Uon••nd Slond.rda ...... 16
           U"" on Telephone Sy.lem. or                                    Commerce Bu.ln         Daily                   10          EdIUon 1..                                        42         Department of DereDlt Telephone
           REA Borrowero                                       29        Commerce Public.lIon. Upd.te                    10        Survey of Current Ruolnetll                         44           Dlreclory                                          16
         Li.t of Propriet.ry Substances .nd                              Con.truclion Reporto                            II        Trade .nd Employm ..nt                              44        The Deterti                                           18
           Nonfood Compound                                    29        Con.tructlon Review                             12        Tr.demark M.nu.1 of E..mlnlng                                  Dlrecto.., of DCAAOffices............... 17
                                                                                                                                     Procedure                                         44         DoD FAR Supple_nt..                                  17
    48
                                                                                                                                                                                                                                                    49
Source:          Edition 226                              Sunnner 1992
                                                                 Appendix




UNITED STATES INTERNATIONAL TRADE COI\11'.lISSION

                        \\'i\SHIl\'GTOi\. DC 20436




February 22, 1993                                    OP-Q-022



MEMORANDUM

TO:         Inspector General

FROM:       Robert A. Rogowsky          .
                                 e~ J-1\· ~O---db
            Director, Office of Operations       ~

SUBJECT:     Draft Report:   Evaluation of Commission's ole in
                             Preparing Recurring Reports


As requested by your memorandum dated January 22, 1993
(IG-Q-002), submitted herewith is the Office of Operation's
response to the subject draft audit report issued January 22,
1993. In accordance with Section 12 of USITC Directive 1701.1,
the Commissioners have had an opportunity to comment on the
response and the Chairman has approved it with a modification.

The Office of Operations agrees with all the audit
recommendation~. The attached response includes actions to be
taken and target completion dates. Also attached are technical
comments with regard to the draft audit report.

Please call me at 205-2230 or Vern Simpson at 205-3296 if you
have any questions.




ATTACHMENTS

cc:     Director, Office   of Administration
        Director, Office   of Industries
        Director, Office   of Executive Liaison
        General Counsel
        Acting Director,   Office of Economics
        Acting Director,   Office of Congressional Liaison
        Acting Secretary
        EVALUATION OF COMMISSION'S R"lLE IN PREPARING RECURRING REPORTS


RECOMMENDATION 1.

Coordinate with the Director of Congressional Liaison to establish procedures
to review and comment on proposed legislation and provide input into proposed
letter requests for studies. Comments should attempt to influence Congress to
request studies in letter requests rather than mandate studies by law and to
incorporate sunset dates in all mandated and requested studies.

RESPONSE: Agree.   Effective immediately, the Office of Congressional Liaison
 (CL) will examine all proposed legislation where recurring Commission studies
are mandated and will recommend that such studies be requested instead by letter
so that they may more easily be adjusted to changing conditions. CL will also
recommend that sunset dates be set.

Effective immediately, staff of the Office of Operations will recommend
incorporation of sunset dates in all discussions and/or draft request letters
concerning recurring studies, whether from the Congress or the U. S . Trade
Representative (USTR).

The Director, Office of Operations, will by memorandum instruct his subordinate
managers to implement this policy.

TARGET COMPLETION DATE: Effective immediately.




RECOMMENDATION 2.

Establish a schedule to communicate with committee staff, either in letters or
meetings, on recurring reports. Develop policies on what information should be
provided and how many reports should be discussed simultaneously.

RESPONSE: Agree.    CL will advise the House Ways and Means Committee (W&M) and
the Senate Finance Committee (SFC), and the Office of Executive Liaison (XL) will
advise the USTR that as part of an annual (October 1) Commission review of
recurring studies, the Commission will provide these committees and USTR with
a list of all such studies, including dates and authorities regarding initiation,
their periodicity, mailing list size, printing cost, and suggestions for change,
if any. The committees and USTR will be requested, in turn, to indicate their
desire to have the study continued, changed, or discontinued.

Staff would in turn notify the Commission by memorandum of the committees' and
USTR's decisions, and initiate any action jackets required to amend or terminate
the studies.

TARGET COMPLETION DATE: October 1 of each year.
RECOMMENDATION 3.

Establish criteria ":'n coordination with Office of General Counsel fo~ determining
which studies should be initiated under section 332 and assign or delete 332
numbers to the recurring studies consistent with that criteria.

RESPONSE:   It is assumed that the recommendation applies only to situations in
which institution of a general factfinding investigation is discretionary rather
than mandatory (e.g., required as a result of a request from the President or
the Congress under section 332 (g) or required under other authority).          The
Commission, based on recent Commission practice, may want to self - ini tiate under
section 332(b), as opposed to not initiating an investigation at all, when one
or more of the following conditions are present:

 (a)     A substantial number of staff work hours are likely to be involved
         (generally a work-month or more).    For accounting purposes, work hours
         can be charged to the investigation.

 (b)     The effort is likely to result in the preparation of a report that will
         be released to the public and/or transmitted to the President or the
         Congress, and which the Commission will want to become part of the
         Commission's permanent records. Virtually all section 332 investigations
         result in the preparation of a report and such reports become part of the
         Commission's permanent records.

 (c)     The Commission will issue a public notice to solicit public input through
         written comments and/or a public hearing. Institution of a formal
         investigation facilitates docketing of comments and handling of inquiries.

 (d)     The Commission plans to collect industry data through questionnaires, and
         through having instituted a formal proceeding wants to ensure that it has
         clear access to its subpoena authority for data collection purposes.

 With respect to conversion of the current East-West Trade and OTAP reports into
 section 332 investigations, there is no legal reason why the East-West Trade and
 OTAP reports could not be done under section 332. However, the General Counsel
·indicates that it has been longstanding Commission practice to conduct
 investigations and prepare reports under the authority that provides for the
 investigations or reports.   The East-West Trade and OTAP reports are required
 by statute (a statute other than section 332) and have well-established formats
 and numbering systems.    The GC is unaware of any reason for changing this
 practice and issuing the reports as part of a self-initiated section 332.'




     'It should be noted that the Commission's annual report is also a recurring report required by statute (by section 332(g»,
but is not labelled as a section 332 investigation. On the other hand, the CBERA reports, which Ilr" required under section
215 of the Caribbean Basin Economic Recovery Act (19 U.S.C. 2701), have since their incepnon been conducted as section
332 investigations. CBERA among other things requires the Commission, in preparing those reports, to seek public input,
either in oral or written form (see sec. 215(c)(2)). For filing and records maintenance purposes, this is more easily
accomplished through institution of a section 332 investigation and establishment of a section 332 docket file in the Secretary's
Office. No such requirement to seek public input in East-West Trade or OTAP report preparation exists, few if any public
submissions are received in conjunction with preparation of those reports, and the Secretary's Office does not maintain a docket
file in conjunction with those reports.
On the other hand, it would appear appropriate to incorporate the Trade-Shifts
Reports, which are not currently prepared pursuant to a particular statutory
authori ty, into the 332 process, largely for reasons xe i ar ed to (a) and (b)
above.   Also, the Commission may want to solicit public input for the trade-
shifts reports. 2

TARGET COMPLETION DATE: May 28, 1993.




RECOMMENDATION 4.

Formulate policies applicable to the initiation and report issuance of recurring
reports via the action jacket process and coordinate with the Acting Secretary
to incorporate these policies in USITC Directive 1201.

RESPONSE: Agree.  All future recurring reports will be initiated by action
jacket. The action jacket will include, among other things, recommendations as
to the following:

(a)      Whether the recurring report should be given 332 status;

(b)      Whether the staff should be given blanket approval to release the report
         without Commission review (such as in the case of the footwear and auto
         reports where staff now has such blanket approval in the interest of
         timeliness and paperwork reduction); and

(c)      The frequency of Commission review regarding report continuation (at least
         once every 3 years).

All recurring reports should b~ reauthorized by the Commission at least every
3 years.  This includes reports for which the Commission has provided blanket
approval for release (such as the monthly auto report, footwear, the quarterly
SOC report, and IER).   The action jacket regarding report continuation should
include information to assist the Commission in its decisions regarding
continuation, format changes, and report distribution. Such information might
include situation changes, data usefulness or availability, historical costs,
and current report distribution. The staff will use the vehicle of the normal
report approval action jacket to obtain a Commission decision on report
continuation, as appropriate.   In reauthorizing studies, staff will also make
recommendations to the Commission regarding whether the staff should be given
blanket approval to release the report without Commission review.

Operations will coordinate with                       the Acting         Secretary       to    incorporate         these
policies in USITC Directive 1201.

TARGET COMPLETION DATE: Mav 28. 1993 for Directive 1201                               revisi~n.       Next AJ cycle
for reauthoriz~cion of eacr. report.



    °Likewise, it is recommended that the Commission designate as a section 332 investigation the annual statistical report
on lJ .5. imports of textiles and apparel under the Multifiber Arrangement. While this report was not mentioned in the IGs
report, it nevertheless appears to merit 332 status under the outlined criteria.
RECOMMENDATION 5.

Transfer all mailing lists for recurrii..g reports to the Arclist.

RESPONSE: Agree.   Since the Secretary's Office does not have the resources to
transfer all mailing lists to the Arclist, this reconunendation depends on
installation of the "Enter Only" version of Arclist software in program offices.
This software allows the addition, deletion, or editing of Arclist data by the
program offices and the downloading of this information to the Secretary.
Placement of this software has begun in program offices.

TARGET COMPLETION DATE: May 28, 1993.


RECOMMENDATION 6.

Notify the Acting Secretary that recurring reports should not be sent to names
on the master list and coordinate in revising the form so that recurring reports
must be specifically requested in order to receive them.

RESPONSE: Agree.    Operations will recommend to the Acting' Secretary that
recurring reports not be sent to names on the master list or the 332 general
list.   Operations will also coordinate with the Office of the Secretary in
revising the request form, taking into account any decision made regarding the
distribution of Commission reports by the GPO.

TARGET COMPLETION DATE: May 28, 1993.


RECOMMENDATION 7.

Develop a coordinaterl approach with the Acting Secretary to periodically validate
mailing lists for recurring reports.

RESPONSE: Agree. The Acting Secretary will take responsibility for coordination
and monitoring of the validation process.       However, the Acting Secretary
indicates that, because of resource considerations, the Office of the Secretary
can only directly validate the master mailing list; other program offices will
be responsible for the actual validation of their mailing lists, keeping the
Secretary apprised of their actions. An annual validation will be implemented
by Operations for recurring reports.

TARGET COMPLETION DATE: May 28, 1993.


RECOMMENDATION 8.

Require the Dirp~t0rs of Ind·lstries and Economics to approve any packaging to
be ~~rfo~ed by ~rogram staff.

RESPONSE: Agree. The Director of Operations will by memorandum instruct managers
to follow this policy.

TARGET COMPLETION DATE: Effective inunediately.
RECOMMENDATION 9.

Determine what is the minimU2l: distribution of each recurring report that      the
Commission must make in order to meet the requirements of section 332.

RESPONSE: Agree.   Each program office will develop for each recurring study a
list of the minimum required number of recipients and/or copies required for
each study. It is recommended that reports for this list continue to be printed
in-house to maintain the maximum flexibility and timeliness. The minimum list
for each recurring report will vary depending on the nature of the report, how
it is prepared, and the subject being addressed.   Staff will endeavor to keep
this list to the lowest number possible.   Generally, the minimum list will be
made up of the following:

a)    Copies for requestor. --The requestor (i.e., SFC, W&M, or USTR) establishes
      the number of copies they require.

b)    File/staff copies.--A limited number of reports are required for record
      keeping and staff reference.    This will vary with the topic of the
      recurring report--the OTAP for example having much broader reference by
      the staff than the footwear report.

c)   Copies to persons providing input to the report. - -The Commission is vi tally
     dependent on outside sources for input in its investigative work. To help
     ensure the continued cooperation of the trade/business community, the
     Commission has traditionally provided complimentary reports to persons that
     assisted the staff through questionnaire responses and in other ways. This
     practice should continue. In the case of the SOC report, for example, this
     will mean that hundreds of complimentary copies will be required.

d)   Courtesv copies.--Depending on the nature of the report it may be
     appropriate to send copies of the report to key industry or trade
     associations or firms.  Such distribution, however, would be kept to a
     minimum.

e)   "Barter" copies. - -Operations staff maintains contact with an extensive
     network of counterparts in other agencies, other governments, and the
     trade community in order to stay informed.      These contacts involve the
     two-way flow of information, and part of such relationships is the exchange
     of relevant documents of interest to each.         It is essential to the
     Commission's mission that the staff maintain the ability to provide reports
     to counterparts. Staff recommends that the minimum list must include these
     copies.

In the case of the Trade Shifts, IER, and ITTR, which are essentially staff
opinions but contain information believed to be useful to the public, it is
recommended that these reports continue to be issued free to a wide range of
persons in the trade/business community. The mailing lists for ~hese documents
would of ~ourse be validated periodically as ~utlined in ~tem 7 above.

TARGET COMPLETION DATE: May 28, 1993.
RECOMMENDATION 10.

In coo:r:u.ination with the Director of Administration, meet with the GPO
Superintendent of Documents to identify which recurring reports GPO is willing
to sell.

RESPONSE: Agree. Representatives of the Office of Administration and IG had an
initial meeting with GPO officials in this regard on January 29, 1993.
Representatives of Operations will join Administration staff in future
discussions with GPO.

Administration will attempt to arrange a meeting in March in which the Commission
will present background information on our recurring reports to the GPO to see
which they might be interested in selling. Staff will report the results of that
meeting and any subsequent followup meetings to the Chairman as appropriate.

Regarding reports in which GPO might have an interest, we do not think that GPO
will be interested in reports such as rum, footwear, and autos, where the mailing
list is small even when the report is free.      In addition, the ethyl alcohol
report consists of only a letter and a Federal Register notice; GPO would not
be interested in it. The EC 92 report to be issued in March 1993 is likely to
be the last such report and is more in the nature of a general 332 report; i t
is not likely that the GPO would be interested in this.       In the interest of
timely report publication and distribution we do not recommend that the monthly
IER report be sold through GPO.   This leaves eight reports (CBERA, OTAP, East-
West, SOC, Steel, Production Sharing, Trade Shifts, and ITTR) in which staff
anticipates possible GPO interest.      Beyond the current set of 14 recurring
reports, staff will contact GPO when new recurring reports are initiated to
determine their interest.

In the event that GPO is not interested in our reports, we recommend that the
Commission maintain its current system of free distribution.      Separately,
Administration is exploring whether using GPO's Reimbursable Mailing Service
can lower mailing costs on all reports.

TARGET COMPLETION DATE: Dependent on GPO decisions regarding Commission reports.


RECOMMENDATION 11.

For reports accepted by GPO, reduce the Commission's mailing lists to the minimum
level identified and coordinate with the Office of Public Affairs to revise the
press release to include instructions on how to procure the report from GPO.

RESPONSE: Agree. Public Affairs indicates that the press releases can be easily
modified once the reports are identified.

TARGET COMPLETION DATE: See   re~ommendation   10.
